TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Future Tax Revenues Are at Risk
                      Because Certain Tax-Exempt Bonds
                       May Exceed Annual Dollar Limits
                              Without Detection



                                     September 14, 2009

                           Reference Number: 2009-10-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 14, 2009


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Future Tax Revenues Are at Risk Because Certain
                                Tax-Exempt Bonds May Exceed Annual Dollar Limits Without
                                Detection (Audit # 200910014)

 This report presents the results of our review of the Tax Exempt and Government Entities
 (TE/GE) Division’s administration of the State volume cap limitations applicable to certain
 tax-exempt private activity bonds under Section 146 of the Internal Revenue Code. 1 Our overall
 objective was to determine whether the Internal Revenue Service (IRS) has an effective program
 to identify and address noncompliance with State volume cap limits specified by Internal
 Revenue Code Section 146 for tax-exempt private activity bonds. This review was conducted as
 part of the Treasury Inspector General for Tax Administration Office of Audit Fiscal Year 2009
 Annual Audit Plan related to the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The Internal Revenue Code places a limit (volume cap) on the amount of tax-exempt private
 activity bonds that can be issued annually within each State. Any bonds issued above the
 maximum yearly dollar limit would be taxable. The Federal Government is at risk of losing
 future tax revenue because the Tax Exempt Bonds (TEB) office has not developed or
 implemented the processes necessary to identify and address noncompliance with State volume
 cap limits for tax-exempt private activity bonds. Without these processes, tax-exempt private
 activity bonds could be issued in excess of Federally mandated yearly State dollar limits without
 the IRS detecting and addressing the noncompliance.


 1
     26 U.S.C. Section 146 (2007).
                               Future Tax Revenues Are at Risk Because Certain
                              Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                             Without Detection



Synopsis
The TEB office has not developed needed processes because its compliance program is based on
determining if individual bond issues are compliant with applicable regulations and not on
determining whether aggregate bond issues exceeded yearly dollar limits. However, even though
the TEB office does not have processes in place to identify States that have exceeded annual
volume cap limits, we determined that no tax revenue was lost in Calendar Years 2006 and 2007
because the 50 States and the District of Columbia did not issue excess tax-exempt private
activity bonds above their respective volume cap limits.
To ensure tax revenues are not lost in the future, the TEB office should expand its compliance
program to address volume cap compliance. However, the IRS is not regularly receiving all the
information it will need to verify volume cap compliance. For example, 18 percent of the bond
returns we reviewed did not include required State certifications, which are the official approval
from the State that indicate the bond issue has been allocated volume cap dollars and complies
with Internal Revenue Code Section 146. Further, 28 percent of the bond returns we reviewed
that were required to include carryforward documentation did not include this documentation
which provides evidence that a State had previously carried forward unused volume cap dollars.
In addition, bond data are not always accurately entered into IRS computer systems. For
example, we identified more than $11 billion in transcription errors between amounts submitted
on bond returns and bond carryforward returns and amounts entered into IRS computer systems.
Without complete and accurate data, any processes the TEB office develops may not result in the
accurate identification of bonds that are over the volume cap and therefore should be taxable.
This could cause TEB office examiners to unnecessarily review bonds that are not actually over
the volume cap and negatively impact the limited resources available to the TEB office
compliance program.
Finally, the American Recovery and Reinvestment Act of 2009 2 has many provisions for volume
caps and carryforwards in the bond-related sections. The TEB office has the opportunity to learn
lessons from addressing issues with tax-exempt private activity bonds and using the knowledge
gained to ensure that bonds in the Act do not exceed legislatively established dollar limits.

Recommendations
We recommended that the Director, Tax Exempt Bonds, Tax Exempt and Government Entities
Division, develop and implement processes to identify and address tax-exempt private activity
bonds that exceed the volume cap limitations in Internal Revenue Code Section 146. To ensure
that processes accurately detect when volume caps have been exceeded, we also recommended


2
    Pub. L. No. 111-5, 123 Stat. 115.
                                                                                                     2
                        Future Tax Revenues Are at Risk Because Certain
                       Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                      Without Detection


that the Director, Tax Exempt Bonds, work with the Wage and Investment Division to 1) ensure
that required State certifications and carryforward elections are received with filed bond returns
and 2) identify and implement a methodology to ensure that transcription errors for bond
documentation are detected.

Response
TE/GE management agreed with all of our recommendations and provided planned actions to
address them. These actions include identifying approaches available to identify and address
Section 146 compliance, improving guidance for processing bond information returns, and
identifying errors for previously processed bond information returns. Management’s complete
response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Nancy A.
Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                     3
                                 Future Tax Revenues Are at Risk Because Certain
                                Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                               Without Detection




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Future Tax Revenues Are at Risk Because the Tax Exempt Bonds Office
          Can Not Determine if State Volume Caps Are Being Exceeded..................Page 4
                    Recommendation 1:..........................................................Page 5

          Tax-Exempt Private Activity Bond Information Needs to Be Complete
          and Accurate .................................................................................................Page 5
                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 16
         Future Tax Revenues Are at Risk Because Certain
        Tax-Exempt Bonds May Exceed Annual Dollar Limits
                       Without Detection




                  Abbreviations

IRS         Internal Revenue Service
TE/GE       Tax Exempt and Government Entities
TEB         Tax Exempt Bonds
                            Future Tax Revenues Are at Risk Because Certain
                           Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                          Without Detection




                                            Background

Internal Revenue Code Sections 142 through 145 and Section 1394 1 allow financing of certain
private activities with tax-exempt bonds. Tax-exempt private activity bonds are subject to
limitations outlined in the Internal Revenue Code, by State, to a maximum dollar amount
(volume cap) of bonds that can be issued tax exempt 2 during a calendar year. The Internal
Revenue Code also allows for a cost of living adjustment, which results in the volume cap
varying from 1 year to the next. For example, in Calendar Year 2006, a State’s volume cap was
the greater of $246,610,000 or the State’s population multiplied by $80. In Calendar Year 2007,
a State’s volume cap was the greater of $256,235,000 or the State’s population multiplied by
$85. Since any tax-exempt bonds issued over the volume cap will result in the loss of tax
revenue to the Federal Government, it is crucial that the Internal Revenue Service (IRS)
determine if volume caps are exceeded.
For private activity bonds to be tax exempt, 95 percent or more of the net bond proceeds must be
used for 1 of the following qualified purposes:
    •   Exempt facility bonds.
    •   Qualified mortgage revenue bonds.
    •   Qualified small issue bonds.
    •   Qualified student loan bonds.
    •   Qualified redevelopment bonds.
If private activities do not fall into the previous categories, the bonds do not meet the
qualifications for tax-exempt status and are considered taxable.
Bond issuers, such as housing authorities and community development authorities, submit
information returns to the IRS to provide information about private activity bond issues and
unused volume cap dollars. The forms filed are the:
    •   Information Return for Tax-Exempt Private Activity Bond Issues (Form 8038, hereafter
        referred to as bond returns) filed 1.5 months to 5.5 months after the bonds are issued.
        Forms 8038 identify the amount of the State volume cap allocated to the bond issuer by
        the State and the amount of bonds issued. The actual volume cap for the State is not
        reported on the return, only the amount allocated to each bond issue.

1
 26 U.S.C. Sections 142 through 145 and 26 U.S.C. Section 1394 (2007).
2
 For the purpose of this document, bonds meeting the qualification limitations outlined in Internal Revenue Code
Section 146 for tax-exempt status will be called tax-exempt private activity bonds.
                                                                                                           Page 1
                            Future Tax Revenues Are at Risk Because Certain
                           Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                          Without Detection



    •   Carryforward Election of Unused Private Activity Bond Volume Cap (Form 8328,
        hereafter referred to as bond carryforward returns) is required to be filed no later than
        February 15 of the year following the calendar year in which the unused amount arises to
        carryforward unused portions of the allocated volume cap. Bond issuers may elect to
        carryforward any unused amount of the allocated volume cap of a calendar year for up to
        3 years. The Form 8328 must also designate the purpose of the unused volume cap
        dollars being carried forward at the time of filing.
In recent years, the dollar volume of tax-exempt private activity bonds has seen a noticeable
increase (approximately 24 percent) from approximately $86.1 billion annually from Calendar
Years 1991 through 2001 to approximately $106.7 billion annually from Calendar Years 2002
through 2005.
In February 2009, the American Recovery and Reinvestment Act of 2009 3 was passed into law
including several sections relating to bond issues. Though most of the bond provisions do not
relate to tax-exempt private activity bonds, many of the bonds identified in the law include
volume caps and carryforwards.
This audit was conducted while the IRS was implementing changes to its processes based on the
enactment of the American Recovery and Reinvestment Act of 2009. As a result, this report
might not reflect the most current status of the IRS’ activities to identify and address States that
have exceeded yearly dollar limitations for issuing tax-exempt private activity bonds.
This review was performed at the Tax Exempt and Government Entities (TE/GE) Division Tax
Exempt Bonds (TEB) Headquarters Office in Washington, D.C., and the TE/GE Division
Business Systems Planning Submission Processing Programs office located at the Ogden
Campus 4 from September 2008 through April 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
 Pub. L. No. 111-5, 123 Stat. 115.
4
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 2
                             Future Tax Revenues Are at Risk Because Certain
                            Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                           Without Detection




                                       Results of Review

The TEB office has not developed or implemented an
effective process to identify and address noncompliance                          The TEB office has not
                                                                             developed or implemented the
with State volume cap limits for tax-exempt private                         processes necessary to identify
activity bonds. Without these processes, the Federal                          and address noncompliance
Government risks losing future tax revenue because                          with State volume cap limits for
tax-exempt private activity bonds could be issued in                           tax-exempt private activity
excess of Federally mandated yearly State dollar limits                                 bonds.
without the IRS detecting and addressing the
noncompliance.
The TEB office has not developed needed processes because its compliance program is based on
determining if individual bond issues are compliant with applicable regulations and not on
determining whether aggregate tax-exempt private activity bond issues exceeded yearly dollar
limits. However, even though the TEB office does not have processes in place to identify States
that have exceeded annual volume cap limits, we determined that no tax revenue was lost in
Calendar Years 2006 and 2007 because the 50 States and the District of Columbia did not issue
excess tax-exempt private activity bonds above their respective volume cap limits.
To ensure tax revenues are not lost in the future, the TEB office should expand its compliance
program to address volume cap compliance. However, the IRS is not regularly receiving all the
information it will need to verify volume cap compliance. In addition, bond data are not always
accurately entered into IRS computer systems. 5 Without complete and accurate data, any
processes the TEB office develops may not result in the accurate identification of bonds that are
over the volume cap and therefore should be taxable. This could cause TEB office examiners to
unnecessarily review bonds that are not actually over the volume cap and negatively impact the
limited resources available to the TEB office compliance program.
Finally, the American Recovery and Reinvestment Act of 2009 has many provisions for volume
caps and carryforwards in the bond-related sections. The TEB office has the opportunity to learn
lessons from addressing issues with tax-exempt private activity bonds and using the knowledge
gained to ensure that bonds in the Act do not exceed legislatively established dollar limits.




5
  The data are entered into the Business Returns Transaction File, which is the IRS file that contains information
from tax returns filed for the current year and previous 2 years.

                                                                                                              Page 3
                        Future Tax Revenues Are at Risk Because Certain
                       Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                      Without Detection



Future Tax Revenues Are at Risk Because the Tax Exempt Bonds
Office Can Not Determine if State Volume Caps Are Being Exceeded
The Internal Revenue Code places a limit on the amount of tax-exempt private activity bonds
that can be issued annually by each State, and the IRS is responsible for enforcing the Internal
Revenue Code. However the TEB office does not have processes in place to detect when
volume caps have been exceeded. For example,
   •   Discussions with IRS campus and TE/GE Division management revealed there currently
       are no systemic controls to identify when States exceed the volume cap. A systemic
       process would allow IRS computer systems to identify States that potentially exceeded
       their volume cap, thereby limiting the number of bonds needing review and allowing the
       TEB office to use their limited staffing resources more efficiently.
   •   The Internal Revenue Manual does not designate responsibility for identifying or
       addressing noncompliance with State volume cap limitations as part of the TEB office
       examination program. As a result, the volume cap is not reviewed as part of the TEB
       office compliance program.
Processes are not in place because the TEB office compliance program focuses on individual
bond issues rather than on all of a State’s tax-exempt private activity bonds that have been issued
in a year. As a result, the TEB office is relying on each State to ensure compliance with volume
cap limitation.
To determine if this missing part of the TEB office
compliance program has resulted in any lost revenue to the         The 50 States and the District
Federal Government, we independently calculated the volume           of Columbia did not issue
caps for each of the 50 States and the District of Columbia for      excess tax-exempt private
                                                                     activity bonds in Calendar
Calendar Years 2006 and 2007 and, based on our review of               Years 2006 and 2007.
tax-exempt private activity bond information, determined that
no tax revenue was lost. However, due to the challenging
economic times the country is facing today, it is even more
important that the IRS ensure that volume cap limitations are not exceeded as the Federal
Government works to stimulate the economy. While none of the States exceeded their respective
annual dollar limitations in the years we reviewed, the TEB office would not have known if they
had. Until the TEB office implements an effective program for identifying and addressing States
that have exceeded their volume caps, the Federal Government risks losing future tax revenue if
States exceed their volume cap limits without detection.




                                                                                            Page 4
                               Future Tax Revenues Are at Risk Because Certain
                              Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                             Without Detection



Recommendation
Recommendation 1: The Director, Tax Exempt Bonds, Tax Exempt and Government
Entities Division, should develop and implement processes to identify and address tax-exempt
private activity bonds that exceed the volume cap limitations in Internal Revenue Code
Section 146. 6
           Management’s Response: TE/GE Division management agreed with this
           recommendation. During Fiscal Year 2010, the TEB office will conduct a compliance
           research project to gather information about the various processes used by the States in
           allocating volume cap and identify potential compliance and educational approaches
           available to the IRS to identify and address Section 146 compliance on a State-wide
           basis.

Tax-Exempt Private Activity Bond Information Needs to Be Complete
and Accurate
Even if the TEB office establishes a systemic process to identify bond issues that exceed State
volume caps, the results may not be accurate due to missing required documents and data
transcription errors. Without complete documentation, the IRS can not verify that the bond
issuer has State approval to issue tax-exempt private activity bonds that are subject to yearly
volume caps or that unused volume cap (carryforward) dollars are available from previous years.
Errors in the data could misstate the amount of volume cap allocated, the amount of bonds
issued, and the amount of carryforward dollars available for future years.
Tax-exempt private activity bond documents are received, processed, and entered into
IRS computer systems at the IRS Ogden Campus. These documents are later digitally scanned
into a computer system for the TEB office to use during bond examinations, and the original
forms are sent to storage facilities.
Based on our review of the data and the associated scanned return images, we determined that
required documentation was not always submitted with the filed returns, and the data transcribed
from the bond returns were not always accurate. We projected that 665 bond returns and
60 bond carryforward returns were either submitted and processed with missing documentation
or were inaccurately entered into IRS computer systems. 7




6
    26 U.S.C. Section 146 (2007).
7
    See Appendix IV for additional details.
                                                                                               Page 5
                       Future Tax Revenues Are at Risk Because Certain
                      Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                     Without Detection



While State volume cap compliance has not been part of the TEB office compliance program in
the past, the TEB office will need to correct this omission. This is important not only for
tax-exempt private activity bonds, but also for American Recovery and Reinvestment Act
of 2009 bond provisions that include volume caps and carryforwards. The IRS should ensure
that the data are accurate because inaccurate data from bond documentation transcribed into
IRS computers during initial processing may prevent the TEB office from systemically
identifying and addressing noncompliance with the Internal Revenue Code.

Recommendation
Recommendation 2: To ensure that processes accurately detect when volume caps have been
exceeded, the Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division,
should work with the Wage and Investment Division to 1) ensure that required State
certifications and carryforward elections are received with filed bond returns (Forms 8038) and
2) identify and implement a methodology to ensure that transcription errors for bond
documentation are detected.
       Management’s Response: TE/GE Division management agreed with this
       recommendation. The Director, TEB, and the Director, TE/GE Business Systems
       Planning, will coordinate a review of Internal Revenue Manual procedures to improve
       guidance available to Wage and Investment Division Submission Processing function
       employees for the processing of the Form 8038 information return, including confirming
       receipt of State volume cap certifications and carryforward elections. The Director, TEB,
       will also coordinate with the Government Entities Compliance Unit to develop and
       implement a data verification project to identify transcription and documentation errors
       for previously processed Form 8038 series information returns.




                                                                                         Page 8
                            Future Tax Revenues Are at Risk Because Certain
                           Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                          Without Detection



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has an effective program to identify and
address noncompliance with State volume cap limits specified by Internal Revenue Code
Section 146 1 for tax-exempt private activity bonds. To accomplish our objective, we:
I.      Determined the tax-exempt private activity bond volume cap allowed by Internal
        Revenue Code Section 146, by State, for Calendar Years 2006 through 2007.
II.     Determined the amount of tax-exempt private activity bonds issued by each State for
        Calendar Years 2006 and 2007 and if there were any related carryforward elections.
        A. Obtained all Information Return for Tax-Exempt Private Activity Bond Issues
           (Form 8038) data from the Business Returns Transaction File 2 for Calendar
           Years 2006 through 2007.
        B. Obtained all Carryforward Election of Unused Private Activity Bond Volume Cap
           (Form 8328) data from the IRS Master File 3 for Calendar Years 2003 through 2008.
        C. Compiled Form 8038 and Form 8328 datasets into a database for analysis.
        D. Compared record counts obtained from the Business Returns Transaction File and the
           IRS Master File to the number of returns processed through the Ogden Campus 4 as
           provided by the TE/GE Division Business Systems Planning Submission Processing
           Programs office to validate the correct number of records were received.
        E. Selected statistical samples of 391 Forms 8038 (from a population of
           2,736 Forms 8038) and 304 Forms 8328 (from a population of 867 Forms 8328)
           based on a confidence level of 95 percent, a precision rate of ±2 percent, and an
           expected error rate of 5 percent. The samples were compared to scanned images from
           the Distributive Processing System Image Net 5 to validate the accuracy and

1
  26 U.S.C. Section 146 (2007).
2
  The IRS file that contains information from tax returns filed for the current year and previous 2 years.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
5
  The Distributed Processing System Image Net is part of a system owned by the IRS Statistics of Income Division.
It includes databases, applications, and scanned returns to support the IRS’ requirement to report to Congress
annually on the numbers and types of returns filed, the characteristics of those returns, and the money amounts
reported on those returns.
                                                                                                          Page 9
                        Future Tax Revenues Are at Risk Because Certain
                       Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                      Without Detection



           completeness of the data received. We selected a statistical sample because we
           wanted to project the results to the entire universe.
       F. Summarized the Forms 8038 total bond issuance amounts by State and year.
       G. Compared volume cap amounts of tax-exempt private activity bonds (identified from
          the Business Returns Transaction File and IRS Master File) to State volume cap
          limits specified by Internal Revenue Code Section 146 to identify instances where
          issued tax-exempt private activity bonds exceeded the allowable volume cap limits.
       H. Analyzed carryforwards (Forms 8328) that may explain States exceeding volume cap
          limits.
       I. Traced tax-exempt private activity bond data for those States exceeding allowable
          volume cap limits to the Distributive Processing System Image Net to validate
          accuracy of the data.
III.   Determined how the TEB office identifies and addresses noncompliance with State
       volume caps specified in Internal Revenue Code Section 146.
       A. Researched the TEB office Internet web site and reviewed guidelines for identifying
          and addressing noncompliance with State volume cap limits.
       B. Researched the TEB office Internal Revenue Manual to identify guidelines for
          identifying and addressing noncompliance with State volume cap limits.
       C. Discussed procedures with TEB office personnel and assessed whether the IRS has an
          effective program to identify and address noncompliance with Internal Revenue Code
          Section 146.
Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: TEB office policies, procedures, and
practices for identifying and addressing States that exceeded volume caps for tax-exempt private
activity bonds, and policies and procedures for processing Forms 8038 and 8238. We evaluated
these controls by interviewing management, reviewing applicable information, and reviewing
Forms 8038 and 8328.




                                                                                        Page 10
                      Future Tax Revenues Are at Risk Because Certain
                     Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                    Without Detection



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Acting Audit Manager
Julia Moore, Senior Auditor
Marjorie A. Stephenson, Senior Auditor
Yolanda D. Brown, Auditor
David F. Allen, Program Analyst
Michele S. Cove, Information Technology Specialist




                                                                                  Page 11
                      Future Tax Revenues Are at Risk Because Certain
                     Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                    Without Detection



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, Tax Exempt and Government Entities
       Division SE:T:CL
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 12
                        Future Tax Revenues Are at Risk Because Certain
                       Tax-Exempt Bonds May Exceed Annual Dollar Limits
                                      Without Detection



We also determined that 36 bond returns indicated that a carryforward of unused volume cap
dollars from previous years was being used. In these circumstances, a carryforward bond return
(Carryforward Election of Unused Private Activity Bond Volume Cap (Form 8328)) is required
to be attached to the bond returns. However, we determined that 10 of 36 bond returns that were
claiming carryforwards of unused volume cap dollars from previous years did not include the
required bond carryforward returns.
We projected the percentage of bond returns in the population that should have attached
carryforward documentation by using the ratio of 36 (9.207 percent) to 391 bond returns applied
to the total population of 2,736 bond returns, which resulted in 252 returns in the population that
should have had bond carryforward returns attached. We projected the percentage of bond
returns missing the carryforward documentation in our sample by using the ratio of
10 (27.778 percent) to 36 and multiplying the ratio to the potential returns in the
population (252), resulting in 70 bond returns that could have been missing carryforward
documentation. Adding together the 2 results (595 + 70) resulted in 665 bond returns that might
either be missing required documentation or have transcription errors.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 60 bond carryforward returns affected (see page 5).

Methodology Used to Measure the Reported Benefit:
We identified a population of 867 bond carryforward returns (Forms 8328) that were filed after
Calendar Year 2003 that had a value in the field for the amount of State volume cap allocated to
the issuer and that had a value in the field for carryforward amount. From this population, we
reviewed a statistical sample of 304 bond carryforward returns, using a confidence level of
95 percent, a precision rate of ±2 percent, and an expected error rate of 5 percent.
We reviewed the 304 bond carryforward returns to determine whether the transcribed data
matched the electronically scanned return image in the Distributed Processing System Image
Net. There were 21 returns that had transcription errors.
Based on these 21 returns, we estimated that 60 returns in our population could have
transcription errors. This is based on the ratio of 21 (6.908 percent) to 304 bond carryforward
returns applied to the total population of 867 bond carryforward returns, which resulted in
60 returns that could be affected.




                                                                                           Page 14
        Future Tax Revenues Are at Risk Because Certain
       Tax-Exempt Bonds May Exceed Annual Dollar Limits
                      Without Detection



                                                 Appendix V

Management’s Response to the Draft Report




                                                          Page 16
 Future Tax Revenues Are at Risk Because Certain
Tax-Exempt Bonds May Exceed Annual Dollar Limits
               Without Detection




                                                   Page 17
 Future Tax Revenues Are at Risk Because Certain
Tax-Exempt Bonds May Exceed Annual Dollar Limits
               Without Detection




                                                   Page 18
 Future Tax Revenues Are at Risk Because Certain
Tax-Exempt Bonds May Exceed Annual Dollar Limits
               Without Detection




                                                   Page 19
